No.
In The
Supreme Court of the United States

 

 

 

DIRES, LLC,
Scott STENZEL, AND CRAIG MILLER,
Petitioners,
vs.
SELECT COMFORT CORPORATION AND
SELECT COMFORT SC CORPORATION,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
RULE 33.1(h) CERTIFICATE OF WORD COUNT

As preparer of the document above, I hereby certify that the Petition for a Writ
of Certiorari, Docket no. , complies with Rule 33.1 in that it contains the proper
typeface in the proper size. I further certify that the document contains 5,593 words
total, including the parts of the document that are exempted by Supreme Court Rule
33.1(a).

I declare under penalty of perjury that the foregoing is true and correct.

 

Executedon _ Angus® i), 2021.
fee

Stephen M. West
Bachman Legal! Printing

Subscribed and sworn to before me this 11th day of August, 2021.

fe po, a ~ ag eeeeeeacecacees
ptt iL \ £2 EDWNR.MOTCH \

Notary Public NOTARY PUBLIC - MINNESOTA,
Commission Expires Jan, 31

 
    
   

 

5

  

FAX (612) 337-8053 ~ PHONE (612) 339-9518

 

2021 - BACHMAN LEGAL.
